NO. 20-
IN THE SUPREME COURT OF THE UNITED STATES
°
Roque “Rocky” Dr La FUENTE,
AND JAMES BERNARD Martin, JR.,
Petitioners,
v.
STEVE SIMON, MINNESOTA SECRETARY OF STATE,
Respondent.
ee
ON PETITION FOR WRIT OF CERTIORARI
TO THE MINNESOTA SUPREME COURT
a
CERTIFICATE OF WORD COUNT
ee
As required by Supreme Court Rule 33.1(h), I certify as a member of the Bar of this
Court that the Petirion For Writ OF CERTIORARI in the above-captioned matter contains
7358 words, including the cover but excluding the parts of the document that are exempted
by Supreme Court Rule 33.1(d).

DATED: October 20", 2020 TO/Cee

Erick G. KAARDAL

Counsel of Record
Mohrman, Kaardal, & Erickson, P.A.
150 S. Fifth Street, Suite 3100
Minneapolis, MN 55402
Telephone: (612) 341-1074
Email: kaardal@mklaw.com

Counsel for Petitioners
